i

\

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
CHRISTOPHER J. RAHAIM

)
)

Appellant,

)
)

v.

)
)

STATE OF FLORIDA,

)
)

Appellee.

)

Opinion filed June 17, 2020.
Appeal pursuant to Fla. R. App. P.
9.141(b)(2) from the Circuit Court for
Pinellas County, Nancy Moate Ley,
Judge.

PER CURIAM.

Affirmed.
VILLANTI, SLEET, and SMITH, JJ., Concur.

Case No.

2D19-3947

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
CASE NOS.: CRC06-23073CFANO
CRC06-26725CFANO
UCNS:
522006CF023073XXXXNO
522006CF026725XXXXNO
DIVISION: A

v.

CHRISTOPHER RAHAIM,
Person ID: 1160034, Defendant.
ORDER DENYING DEFENDANT’S MOTION TO UNSEAL
AND OBTAIN ACCESS TO CONFIDENTIAL FILES
THIS MATTER is before the Court On Defendant’s pro se Motion to Unseal and Obtain
Access to Confidential Files filed July 1, 2019, pursuant to Florida Rule of Judicial
Administration 2.420(j). Having considered the motion, record, and applicable law, the Court
finds as follows:
Procedural History
In case CRC06-23073CFANO, a jury convicted Defendant of one count of sexual battery
and the Court sentenced him to 15 years in prison. His judgment and sentence were affirmed on
appeal and the mandate issued December 22, 2009. See Rahaim v. State, 21 So. 3d 922 (Fla. 2d
DCA 2009). In case CRC06-26725CFANO, a jury convicted Defendant of one count of sexual
battery and the Court sentenced him to 15 years in prison consecutive to the sentence in case
CRC06-23073CFANO. This judgment and sentence were per curiam affirmed on appeal and the
mandate issued October 5, 2010. See Rahaim v. State, 44 So. 3d 590 (Fla. 2d DCA 2010) (table).
Defendant did not file a timely motion for postconviction relief under Florida Rule of
Criminal Procedure 3.850 and the Court notes that the time to do so expired long ago. See Fla. R.
Crim. P. 3.850(b) (stating, in part, that no “motion shall be filed or considered [under] this rule if
filed more than two years after the judgment and sentence become final”); Beaty v. State, 701 So.
2d 856, 857 (Fla. 1997) (noting that when a defendant files a direct appeal, the judgment and
sentence become final, and the clock under rule 3.850(b) begins to run, upon issuance of the

State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
appellate court’s mandate). Despite the procedural posture of this case, Defendant continues to
file motions seeking postconviction discovery and relief.
Analysis
The Court has identified three primary claims/topics-which it labels as Claims 1 through
3 below-that Defendant appears to be raising in the present motion. The Court endeavors to
address each of his allegations and arguments under what the Court deems to be the relevant and
appropriate claim. The Court also notes that some of the allegations overlap and are considered
under more than one claim number.
In Claim 1, Defendant relies on rule 2.420(j)”and requests that the Court provide access to
all confidential records and files sealed by the Court. The court files of both of the abovecaptioned cases reflect that the Court did not seal any records, files, or documents in either case.
Further, Defendant’s motion is insufficient to warrant relief under rule 2.420(j), which sets forth
the procedure for obtaining access to confidential court records. Specifically, subdivision (j)(2)
provides that “a court order allowing access to confidential court records may be obtained by
filing a written motion which must:”
(A) identify the particular court record(s) or a portion of the court record(s) to
which the movant seeks to obtain access with as much specificity as possible
without revealing the confidential information;
(B) specify the bases for obtaining access to such court records;
(C) set forth the specific legal authority for obtaining access to such court records;
and
(D) contain a certification that the motion is made in good faith and is supported
by a sound factual and legal basis.
Fla. R. Jud. Admin. 2.420(j)(2) (emphasis added).
Defendant’s motion does not contain the information required by rule 2.420(j)(2) and
several of the items he identifies in the motion were not filed in the court files and are, thus, not
court records. Specifically, the only records Defendant identifies in his motion are:
1) The order granting Defendant’s motion to compel supplemental DNA
paperwork in case CRC06-23073CFANO;
2) The refusal to prosecute document from the alleged victim in case CRC0626725CFANO;
3) Any and all S.A.V.E. exam documents from both cases;

2 of 5

State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
4) Any sworn statements from the would be material witnesses, both of the
alleged victim-informants;
5) Any and all DNA paperwork in both cases;
6) Any and all documents relevant to the non-production of confidential
informant and alleged victim at jury trial;
7) Any and all motions, hearing transcripts, and orders pertaining to the
determination of confidentiality of records;
8) Any and all records regarding the firing of Assistant State Attorney Broderick
L. Taylor, and Sergeant Cheryl Seamen and Sergeant Thomas Klein of the
Pinellas County Sheriffs Office; and the disbarment of Judge Robert Timothy
Peters;1
9) Defense counsel’s objections omitted from the record.
Rule 2.420(b)(1)(A) defines “court records” as:
the contents of the court file, including the progress docket and other similar
records generated to document activity in a case, transcripts filed with the clerk,
documentary exhibits in the custody of the clerk, and electronic records,
videotapes, or stenographic tapes of depositions or other proceedings filed with
the clerk, and electronic records, videotapes, or stenographic tapes of court
proceedings.
Fla. R. Jud. Admin. 2.420(b)(1)(A) (emphasis added). With regard to items 1 and 2 above, the
Clerk of the Circuit Court received a request for a copy of these documents and responded that it
found no such documentation of a “waiver of prosecution” signed by the alleged victim in case
CRC06-26725CFANO and that, although an “Order Granting Motion to Compel DNA
Paperwork” is docketed on the case summary, no physical document was filed with the Clerk’s
office. (See Composite Exhibit 1: Clerk’s Feb. 18, 2019 Letter and corresponding request for
copies). Nor has the Court’s review of the court files of the above-captioned cases revealed that
either of the documents were filed therein. Thus, items 1 and 2 are not court records and,
therefore, are not governed by rule 2.420(j).
As to items 3 through 8, the Court notes that Defendant’s request for “any and all”
documents pertaining to the particular subject is vague and overly broad, and prevents the Court
from taking any meaningful action with respect thereto. It also places the onus on the Court to
attempt to locate and determine the alleged confidential documents or information to which
Defendant is referring. The Court will not endeavor to do so. Further, as to item 7, no motions or
The Court notes initially that Judge Peters was not disbarred - he simply retired from the profession.
3 of 5

'State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
orders regarding determining the confidentiality of records were filed in the court files of these
cases. Therefore, because Defendant’s description of items 3 through 8 are vague, overly broad,
and insufficient to warrant relief under rule 2.420(j), his request regarding them is denied.
Finally, in item 9, Defendant requests “defense counsel’s objections omitted from the
record.” On its face, one would not expect to find this item in the court files as Defendant,
himself, describes the objections as having been “omitted from the record.” As such, the Court
finds that item 9 does not constitute “court records” to which rule 2.420(j)(2) would apply.
Accordingly, to the extent Defendant seeks an order pursuant to rule 2.420(j), the Court finds he
has failed to establish entitlement to relief with respect to any of the above-listed items and
Claim 1 is denied.
In Claim 2, Defendant contends that he is “actually innocent” and has been deprived
discovery pursuant to Florida Rule of Civil Procedure 1.380. That rule sets forth the procedure
for obtaining sanctions for the failure to make discovery in civil cases; however, Florida’s rules
of civil procedure apply to actions of a civil nature and certain special statutory proceedings. See
Fla. R. Civ. P. 1.010. Rule 1.380 does not apply to Defendant’s criminal cases, nor would it
apply in the procedural posture of these criminal cases. As such, to the extent he seeks relief
under rule 1.380, the request is denied.
In Claim 3, Defendant contends that there are disputed issues of material fact regarding
the “willful disregard of court orders, discovery violations, fraud on the court, undue influence,
connivance, all perpetrated by court officials and police, resulting in manifest injustice from
fundamental errors.” He also contends he has been falsely imprisoned2 and is being deprived due
process by the State’s failure to disclose material favorable evidence. Defendant argues that
“confidential files contain the strongest, proof’ of his innocence and without them he is being
denied his right to appeal and argue the merits of his case. Further, he “must have access to
confidential files” to identify issues and correct a manifest injustice. As such, he “prays for all
records and the correction of Manifest Injustice.”
• The Court finds Claim 3 is a postconviction attempt to collaterally attack Defendant’s
convictions and sentences. Further, to the extent Defendant seeks to obtain “confidential files
[with] the strongest proof’ of his innocence, the Court finds this to be an attempt to embark on

2 Defendant contends that he was “fraudulently” convicted and, as such, he is being “falsely” imprisoned for
the charges in these cases.
4 of 5

• • , >State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO

an impermissible “fishing expedition” to discover support for his claim that several players—
including the State Attorney’s Office, trial judge, Clerk of the Circuit Court, Saint Petersburg
Fire Department, Saint Petersburg Police Department, Florida Department of Law Enforcement,
trial witnesses, and the victims—have conspired to falsely accuse, charge, prosecute, and
imprison him in the above-captioned cases.
As noted above, Defendant’s convictions and sentences became final on December 22,
2009, and October 5, 2010. Thus, collateral claims at this juncture are untimely under rule 3.850.
Further, Defendant’s conclusory claim of “manifest injustice” is not a valid exception to the twoyear limitation for filing a motion for postconviction relief. See McDonald v. State, 133 So. 3d
530, 530 (Fla. 2d DCA 2013) (“caution[ing] McDonald and others that the holding in Deras v. .
State, 54 So. 3d 1023 (Fla. 3d DCA 2011), is limited to its facts and does not, in our view, create
a manifest injustice exception to the rule 3.850 time bar”); see also State v. Manning, 121 So. 3d
1083, 1085 (Fla. 4th DCA 2013) (quoting Hall v. State, 94 So. 3d 655, 657 (Fla. 1st DCA
2012) (stating that “simply construing an alleged error as ‘manifest injustice’ does not relieve [an
appellant] of the time bar contained in rule 3.850”)). Accordingly, to the extent Defendant
requests that the Court correct a manifest injustice in his cases, the request is denied. The Court
notes additionally that Defendant was not denied his right to appeal because, as set forth above,
he prosecuted direct appeals in both of the above-captioned cases.
Based on the above, it is hereby
ORDERED AND ADJUDGED that Defendant’s Motion to Unseal and Obtain Access
to Confidential Files is DENIED.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this
______day of August, 2019. A true and correct copy of this order has been furnished to the
parties listed below.

Original Signed

Nancy Moate Ley, Circuit Judge

AU6 2 1 2019
NANCY MOATE LEY
CIRCUIT JUDGE

cc:

Office of the State Attorney
Christopher Rahim, DC# R02347; Sumter C.I.; 9544 County Road 476B; Bushnell, FL 33513-0667

5 of 5

x:

f\

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
v.

CHRISTOPHER RAHAIM,
Person ID: 1160034, Defendant.

CASE NOS.: CRC06-23073CFANO
CRC06-26725CFANO
UCNS:
522006CF023073XXXXNO
522006CF026725XXXXNO
DIVISION: A

ORDER DENYING DEFENDANT’S MOTION FOR RFFTF ARTNC
TO UNSEAL AND OBTAIN ACCESS TO CONFIDENTIAL FILES
THIS MATTER is before the Court on Defendant’s pro se Motion for Rehearing to
Unseal and Obtain Access to Confidential Files filed September 3, 2019, and “Amendment for
Motion for Rehearing to Unseal and Obtain Access To Confidential Records” filed September 6,
2019, both of which are directed at this Court’s August 23, 2019, Order Denying Defendant’s
Motion to Unseal and Obtain Access to Confidential Files. Having considered the motion,
amendment, record, and applicable law, the Court finds that it did not overlook or misapprehend
the facts or law as Defendant contends. Accordingly, it is hereby
ORDERED AND ADJUDGED that Defendant’s Motion for Rehearing is DENIED.
DEFENDANT IS NOTIFIED that he has thirty days from the date of this order to appeal,
should he choose to do so.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this____
day of September, 2019. A true and correct copy of this order has been furnished to the parties
listed below.

Original Signed
Nancy Moate Ley, Circuit Judge
iNi&NfCt!'' MQATiE iUEY
CIRCUIT JBBGH

cc:
Office of the State Attorney
Christopher Rahim, DC# R02347
Sumter Correctional Institution
9544 County Road 476B
Bushnell, FL 33513-0667

A p(?kAC^lX (3
IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
CASE NOS.: CRC06-23073CFANO
CRC06-26725CFANO
UCNS:
522006CF023073XXXXNO
522006CF026725XXXXNO
DIVISION: A

v.

CHRISTOPHER RAHAIM,
Person ID: 1160034, Defendant.
ORDER DENYING DEFENDANT’S MOTION TO UNSEAL
AND OBTAIN ACCESS TO CONFIDENTIAL FILES
THIS MATTER is before the Court on Defendant’s pro se Motion to Unseal and Obtain
Access to Confidential Files filed July 1, 2019, pursuant to Florida Rule of Judicial
Administration 2.420(j). Having considered the motion, record, and applicable law, the Court
finds as follows:
Procedural History
In case CRC06-23073CFANO, a jury convicted Defendant of one count of sexual battery
and the Court sentenced him to 15 years in prison. His judgment and sentence were affirmed on
appeal and the mandate issued December 22, 2009. See Rahaim v. State, 21 So. 3d 922 (Fla. 2d
DCA 2009). In case CRC06-26725CFANO, a jury convicted Defendant of one count of sexual
battery and the Court sentenced him to 15 years in prison consecutive to the sentence in case
CRC06-23073CFANO. This judgment and sentence were per curiam affirmed on appeal and the
mandate issued October 5, 2010. See Rahaim v. State, 44 So. 3d 590 (Fla. 2d DCA 2010) (table).
Defendant did not file a timely motion for postconviction relief under Florida Rule of
Criminal Procedure 3.850 and the Court notes that the time to do so expired long ago. See Fla. R.
Crim. P. 3.850(b) (stating, in part, that no “motion shall be filed or considered [under] this rule if
filed more than two years after the judgment and sentence become final”); Beaty v. State, 701 So.
2d 856, 857 (Fla. 1997) (noting that when a defendant files a direct appeal, the judgment and
sentence become final, and the clock under rule 3.850(b) begins to run, upon issuance of the

State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
appellate court’s mandate). Despite the procedural posture of this case, Defendant continues to
file motions seeking postconviction discovery and relief.
Analysis
The Court has identified three primary claims/topics-which it labels as Claims 1 through
3 below-that Defendant appears to be raising in the present motion. The Court endeavors to
address each of his allegations and arguments under what the Court deems to be the relevant and
appropriate claim. The Court also notes that some of the allegations overlap and are considered
under more than one claim number.
In Claim 1, Defendant relies on rule 2.420(j)*and requests that the Court provide access to
all confidential records and files sealed by the Court. The court files of both of the abovecaptioned cases reflect that the Court did not seal any records, files, or documents in either case.
Further, Defendant’s motion is insufficient to warrant relief under rule 2.420(j), which sets forth
the procedure for obtaining access to confidential court records. Specifically, subdivision (j)(2)
provides that “a court order allowing access to confidential court records may be obtained by
filing a written motion which must.”
(A) identify the particular court record(s) or a portion of the court record(s) to
which the movant seeks to obtain access with as much specificity as possible
without revealing the confidential information;
(B) specify the bases for obtaining access to such court records;
(C) set forth the specific legal authority for obtaining access to such court records;
and
(D) contain a certification that the motion is made in good faith and is supported
by a sound factual and legal basis.
Fla. R. Jud. Admin. 2.420(j)(2) (emphasis added).
Defendant’s motion does not contain the information required by rule 2.420(j)(2) and
several of the items he identifies in the motion were not filed in the court files and are, thus, not
court records. Specifically, the only records Defendant identifies in his motion are:
1) The order granting Defendant’s motion to compel supplemental DNA
paperwork in case CRC06-23073CFANO;
2) The refusal to prosecute document from the alleged victim in case CRC0626725CFANO;
3) Any and all S.A.V.E. exam documents from both cases;

2 of 5

State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
4) Any sworn statements from the would be material witnesses, both of the
alleged victim-informants;
5) Any and all DNA paperwork in both cases;
6) Any and all documents relevant to the non-production of confidential
informant and alleged victim at jury trial;
7) Any and all motions, hearing transcripts, and orders pertaining to the
determination of confidentiality of records;
8) Any and all records regarding the firing of Assistant State Attorney Broderick
L. Taylor, and Sergeant Cheryl Seamen and Sergeant Thomas Klein of the
Pinellas County Sheriffs Office; and the disbarment of Judge Robert Timothy
Peters;1
9) Defense counsel’s objections omitted from the record.
Rule 2.420(b)(1)(A) defines “court records” as:
the contents of the court file, including the progress docket and other similar
records generated to document activity in a case, transcripts filed with the clerk,
documentary exhibits in the custody of the clerk, and electronic records,
videotapes, or stenographic tapes of depositions or other proceedings filed with
the clerk, and electronic records, videotapes, or stenographic tapes of court
proceedings.
Fla. R. Jud. Admin. 2.420(b)(1)(A) (emphasis added). With regard to items 1 and 2 above, the
Clerk of the Circuit Court received a request for a copy of these documents and responded that it
found no such documentation of a “waiver of prosecution” signed by the alleged victim in case
CRC06-26725CFANO and that, although an “Order Granting Motion to Compel DNA
Paperwork” is docketed on the case summary, no physical document was filed with the Clerk’s
office. {See Composite Exhibit 1: Clerk’s Feb. 18, 2019 Letter and corresponding request for
copies). Nor has the Court’s review of the court files of the above-captioned cases revealed that
either of the documents were filed therein. Thus, items 1 and 2 are not court records and,
therefore, are not governed by rule 2.420(j).
As to items 3 through 8, the Court notes that Defendant’s request for “any and all”
documents pertaining to the particular subject is vague and overly broad, and prevents the Court
from taking any meaningful action with respect thereto. It also places the onus on the Court to
attempt to locate and determine the alleged confidential documents or information to which
Defendant is referring. The Court will not endeavor to do so. Further, as to item 7, no motions or
The Court notes initially that Judge Peters was not disbarred - he simply retired from the profession.
3 of 5

State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO
orders regarding determining the confidentiality of records were filed in the court files of these
cases. Therefore, because Defendant’s description of items 3 through 8 are vague, overly broad,
and insufficient to warrant relief under rule 2.420(j), his request regarding them is denied.
Finally, in item 9, Defendant requests “defense counsel’s objections omitted from the
record.” On its face, one would not expect to find this item in the court files as Defendant,
himself, describes the objections as having been “omitted from the record.” As such, the Court
finds that item 9 does not constitute “court records” to which rule 2.420(j)(2) would apply.
Accordingly, to the extent Defendant seeks an order pursuant to rule 2.420(j), the Court finds he
has failed to establish entitlement to relief with respect to any of the above-listed items and
Claim 1 is denied.
In Claim 2, Defendant contends that he is “actually innocent” and has been deprived
discovery pursuant to Florida Rule of Civil Procedure 1.380. That rule sets forth the procedure
for obtaining sanctions for the failure to make discovery in civil cases; however, Florida’s rules
of civil procedure apply to actions of a civil nature and certain special statutory proceedings. See
Fla. R. Civ. P. 1.010. Rule 1.380 does not apply to Defendant’s criminal cases, nor would it
apply in the procedural posture of these criminal cases. As such, to the extent he seeks relief
under rule 1.380, the request is denied.
In Claim 3, Defendant contends that there are disputed issues of material fact regarding
the “willful disregard of court orders, discovery violations, fraud on the court, undue influence,
connivance, all perpetrated by court officials and police, resulting in manifest injustice from
fundamental errors.” He also contends he has been falsely imprisoned2 and is being deprived due
process by the State’s failure to disclose material favorable evidence. Defendant argues that
“confidential files contain the strongest proof’ of his innocence and without them he is being
denied his right to appeal and argue the merits of his case. Further, he “must have access to
confidential files” to identify issues and correct a manifest injustice. As such, he “prays for all
records and the correction of Manifest Injustice.”
The Court finds Claim 3 is a postconviction attempt to collaterally attack Defendant’s
convictions and sentences. Further, to the extent Defendant seeks to obtain “confidential files
[with] the strongest proof’ of his innocence, the Court finds this to be an attempt to embark on

2 Defendant contends that he was “fraudulently” convicted and, as such, he is being “falsely” imprisoned for
the charges in these cases.
4 of 5

jfX
/ ; \ State v. Christopher Rahim, CRC06-23073CFANO; CRC06-26725CFANO

an impermissible “fishing expedition” to discover support for his claim that several players—
including the State Attorney’s Office, trial judge, Clerk of the Circuit Court, Saint Petersburg
Fire Department, Saint Petersburg Police Department, Florida Department of Law Enforcement,
trial witnesses, and the victims—have conspired to falsely accuse, charge, prosecute, and
imprison him in the above-captioned cases.
As noted above, Defendant’s convictions and sentences became final on December 22,
2009, and October 5, 2010. Thus, collateral claims at this juncture are untimely under rule 3.850.
Further, Defendant’s conclusory claim of “manifest injustice” is not a valid exception to the twoyear limitation for filing a motion for postconviction relief. See McDonald v. State, 133 So. 3d
530, 530 (Fla. 2d DCA 2013) (“cautioning] McDonald and others that the holding in Deras v. .
State, 54 So. 3d 1023 (Fla. 3d DCA 2011), is limited to its facts and does not, in our view, create
a manifest injustice exception to the rule 3.850 time bar”); see also State v. Manning, 121 So. 3d
1083, 1085 (Fla. 4th DCA 2013) (quoting Hall v. State, 94 So. 3d 655, 657 (Fla. 1st DCA
2012) (stating that “simply construing an alleged error as ‘manifest injustice’ does not relieve [an
appellant] of the time bar contained in rule 3.850”)). Accordingly, to the extent Defendant
requests that the Court correct a manifest injustice in his cases, the request is denied. The Court
notes additionally that Defendant was not denied his right to appeal because, as set forth above,
he prosecuted direct appeals in both of the above-captioned cases.
Based on the above, it is hereby
ORDERED AND ADJUDGED that Defendant’s Motion to Unseal and Obtain Access
to Confidential Files is DENIED.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this
______day of August, 2019. A true and correct copy of this order has been furnished to the
parties listed below.

-------------------- r Original Signed

Nancy Moate Ley, Circuit Judge

AUG 2 1 2019
NANCY MOATE LEY
CIRCUIT JUDGE

cc:

Office of the State Attorney
Christopher Rahim, DC# R02347; Sumter C.I.; 9544 County Road 476B; Bushnell, FL 33513-0667

5 Of 5

S •

P

a t
CO

zfc

V®

’ ;3-S\

sr

co c-1
IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUmCHfe/ ^
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNT#%\\ ^ %
CRIMINAL DIVISION
£3 It ^ S

! 'l, n S 3

STATE OF FLORIDA,

•CO

CASE NOS.: CRC06-23073CFANO
CRC06-26725CFANO
UCNS:
522006CF023073XXXXNO
522006CF026725XXXXNO
DIVISION: A

v.

CHRISTOPHER RAHIM,
Person ID: 1160034, Defendant.
ORDER DENYING DEFENDANT’S AMENDED MOTION FOR FARETTA HEARING
THIS MATTER is before the Court on Defendant’s pro se “Amended Motion for Faretta1
Hearing for the Right of Self-Representation to Respond and Address Fraudulent Practices and
Claims of State” filed October 31, 2018. Having considered the motion, record, and applicable
law, the Court finds as follows:
Procedural History
In case CRC06-23073CFANO, a jury convicted Defendant of one count of sexual battery
on August 6,2008, and the Court sentenced him to 15 years’ imprisonment on September 8,2008.
(.See Exhibit 1: Judgment and Sentence). His judgment and sentence were affirmed on appeal and
the mandate issued December 22, 2009. See Rahaim v. State, 21 So. 3d 922 (Fla. 2d DCA 2009).
In case CRC06-26725CFANO, on December 18, 2008, a jury convicted Defendant of one count
of sexual battery and the Court sentenced him to 15 years’ imprisonment consecutive to the
sentence in case CRC06-23073CFANO. {See Exhibit 2: Judgment and Sentence). His judgment
and sentence were per curiam affirmed on appeal and the mandate issued October 5, 2010. See
Rahaim v. State, 44 So. 3d 590 (Fla. 2d DCA 2010) (table).
On July 13, 2018—several years after his judgments and sentences became final—
Defendant filed a motion for Faretta hearing in each of the above-styled cases requesting that
counsel be discharged and that Defendant be permitted to proceed pro se. The Court found that
under Rule 3.111(e), counsel’s representation ended upon the filing of the respective notices of
appeal and dismissed both motions as moot. (See Composite Exhibit 3: Orders Dismissing
Defendant’s Motion to Dismiss Counsel (without exhibits)). Defendant filed an Amended Motion
Faretta v. California, 422 U.S. 806 (1975).

34

• State V. Christopher Rahim, CRC06-23073CFANO, CRC06-26725CFANO
for Faretta Hearing to Proceed Pro Se on September 14, 2018, again requesting that counsel be
discharged and that he be permitted to proceed pro se. Citing to its prior orders, the Court again
pointed out that Defendant was not represented by counsel and, therefore, that he was already
proceeding pro se. As such, the Court denied Defendant’s Amended Motion for Faretta Hearing.
(See Exhibit 4: Order Denying Defendant’s Motion to Clarify and Defendant’s Amended Motion
for Faretta Hearing (without exhibits)). Defendant now files, in effect, his second amended motion
for Faretta hearing, which the Court denies for the following reasons.
Analysis
Defendant makes several claims of trial court enror including the use of inadmissible and
fraudulent evidence, and insufficient evidence to support the verdict. He also claims that the
Court’s three previous orders are non-final because they fail to advise him of his right to appeal
and, because the Court is entering non-final orders, it is refusing to relinquish jurisdiction to the
appellate court. Defendant also complains of the Court’s “ongoing misrepresentation” that he is
not represented by counsel and is automatically proceeding pro se. He further contends that
collectively these claims demonstrate that there is no final judgment or conviction and, as such,
there has been no conclusion of the case that would discharge counsel by operation of law. In
conclusion, Defendant again requests that his trial attorney be discharged and that he be permitted
to proceed pro se.
The Court notes initially that Defendant’s request is successive as it has previously been
addressed and decided on the merits at least three times; however, the Court writes to address the
additional-albeit conclusory-claims raised. .As to his claims of trial court error and insufficiency
of the evidence to support the verdict, such claims should have been raised in his direct appeals
and are not cognizable in this postconviction posture. See Bruno v. State, 807 So. 2d 55, 63 (Fla.
2001) (noting that “the main question on direct appeal is whether the trial court erred”); Sampson
v. State, 845 So. 2d 271, 272 (Fla, 2d DCA 2003) (finding that a “claim of trial court error ...
should have been brought on direct appeal and is not cognizable in a postconviction motion”);
Williams v. State, 642 So. 2d 67,68 (Fla. 1st DCA 1994) (upholding postconviction court’s denial
of claims of insufficient evidence to support the conviction and knowing use of perjured testimony
because these claims were matters for direct appeal); c.f. Prince v. State, 903 So. 2d 1068, 1069
(Fla. 2d DCA 2005) (finding that claim of insufficiency of the evidence is not cognizable in a rule
3.800(a) motion). Defendant’s reliance on Latin Exp. Serv., Inc. v. Dep't of Revenue, 660 So. 2d

2

35

■ State v. Christopher Rahim, CRC06-23073CFANO, CRC06-26725CFANO
1059, 1060 (Fla.. 1st DCA 1995), is misplaced because that case applies specifically to appellate
review under the Administrative Procedure Act and has no bearing on his criminal case.
Likewise without merit is Defendant’s claim that the Court’s previous orders were not
final, appealable orders because they failed to advise him of his right to appeal. The “test for
determining the finality of an order is whether the order marks the end ofjudicial labor” as to the
motion under review. Smith v. State, 902 So. 2d 179, 181 (Fla. 3d DCA 2005). Advising a
defendant that he has thirty days to appeal does not have any effect on the finality of the order. See
Dougherty v. State, 10 So. 3d 172,173 (Fla. 5th DCA 2009) (concluding that circuit court’s order
was not a final appealable order even though it advised the defendant that he had thirty days to file
an appeal); Christner v. State, 984 So. 2d 561, 562 (Fla. 2d DCA 2008) (same); Cotterell v. State,
890 So. 2d 315,315-16 (Fla. 5th DCA 2004) (rejecting the defendant’s argument that because the
order denying him relief did not inform him that he had 30 days to file an appeal, his appeal-filed
5 days late-should not be dismissed as untimely). The three orders. Defendant contends are not
final marked the end of judicial labor with respect to the claims raised in the respective motions
addressed. As such, contrary to Defendant’s belief, the orders were final and appealable.
Further, the fact that the Court’s previous orders do not notify him of his right to appeal
does not establish that the Court was refusing to relinquish jurisdiction to the appellate court.
Defendant could and should have invoked the jurisdiction of the appellate court by filing a notice
of appeal within 30 days of rendition of each of the orders he wanted reviewed. See Fla. R. App.
P. 9.110(b). That is, Defendant had 30 days from the time that each of the signed written orders
were filed with the Clerk of the Circuit Court. See Fla. R. App. P. 9.020 (i) (stating that an “order
is rendered when a signed, written order is filed with the clerk of the lower tribunal).
To support his complaint that the Court continues to “misrepresent” that he is not
represented by counsel and is, thus, automatically proceeding pro se, Defendant contends that the
amendment of Rule 3.111 in 2000 made the rule inapplicable to investigative proceedings—which
he claims is what is pending, though he does not elaborate on what he is referring to. The Court
notes that the Committee Notes to Rule 3.111 state, in pertinent part, “2000 Amendment. This
rule applies only to judicial proceedings and is inapplicable to investigative proceedings and
matters. See rule 3.010.” Fla. R. Crim. P. 3.111. It appears that Defendant is basing his argument
on this Committee Note; however, he does not explain why he thinks the criminal proceedings
resulting in his convictions in the above-styled cases constitute investigative proceedings. He does
suggest that he is “the victim of an undercover investigation” but, again, he does not elaborate or
3

36

* State V. Christopher Rahim, CRC06-23073CFANO, CRC06-26725CFANO
explain the relevance of this “undercover investigation” to his criminal cases. Defendant’s claim
that Rule 3.111 is inapplicable and, therefore, that he is still represented by trial counsel is without
merit and denied.
Moreover, the primary change made to Rule 3.111 in 2000 was the addition of a new
subdivision—(e)(2). See Amendments to the Fla. Rules of Crim. Procedure, 794 So. 2d 457 (Fla.
2000). As the Florida Supreme Court explained, the new subdivision (e)(2) “conforms the criminal
rules to Florida Rule of Appellate Procedure 9.140(b)(5)2, which requires that defense counsel not
be allowed to withdraw until substitute counsel has been obtained or appointed, or a statement has
been filed with the appellate court that the appellant has exercised the right to self-representation.”
Id. at 457. The Supreme Court’s opinion does not mention or state that its revision of Rule 3.111
has any relevance to investigative proceedings or that the revision makes the rule inapplicable to
such proceedings. Defendant’s conclusory argument to the contrary is without merit.
Another reason Defendant believes he is still represented by counsel is that his trial counsel
never filed a motion to withdraw or served him with a copy of such motion as required by Rules
9.140 and 9.440(b). This claim is without merit and denied. First, Rule 9.440(b) does not apply to
the circumstances here where Defendant’s trial attorney remained on the case through the filing of
. the notice of appeal and to the transmittal of the record to the appellate court.
Second, Defendant has misinterpreted or misconstrued Rule 9.140(d)(1)(E) in asserting
that counsel was required to file a motion to withdraw, with service on Defendant, before counsel
could be withdrawn from the case. Subdivision (d)(1)(E) contains different requirements
depending on different circumstances, one of which is when the appeal is not publically funded
and applies to state and defense appeals. It is upon this scenario that Defendant relies in claiming
that a motion to withdraw is required; however, he fails to recognize that in publicly funded
appeals, the court appointed attorney remains as counsel of record only until the record is
electronically transmitted to the appellate court. Fla. R. App. P. 9.140(d)(1)(E). There is no
requirement that the court appointed attorney file a motion to withdraw before he will be permitted
to withdraw as counsel of record. See id. In the above-captioned cases, Defendant’s trial attorney
was appointed by the Court and his appeals were publically funded. In case CRC0623073CFANO, the record was electronically transmitted to the Second District on December 3,
2008, and Defendant’s trial attorney was relieved of his professional duties at that time. (See
2 Subdivision (b)(5) was renumbered as subdivision (d) in 2002. See Amendments to Fla. Rules of App
Procedure, 827 So. 2d 888,903-04 (Fla. 2002).
. 4

37

, *

‘ State v. Christopher Rahim, CRC06-23073CFANO, CRC06-26725CFANO
Exhibit 5: case docket for 2D08-4872). In case CRC06-26725CFANO, the record was
electronically transmitted to the Second District on March 2,2009, and Defendant’s trial attorney
was relieved of his professional duties at that time. {See Exhibit 6: case docket for 2D09-298).
Accordingly, Defendant’s claim that he is still represented by counsel because his trial attorney
failed to comply with Rules 9.140 and 9.440(b) is without merit and denied.
Finally, Defendant contends that all of the above arguments collectively demonstrate that
there is no final judgment or conviction and, as such, there has been no conclusion of the case that
would discharge counsel by operation of law. Again, Defendant is mistaken. “A judgment [of
conviction] becomes final... when the appellate process, once started, has been completed” and
the mandate has issued. McCuiston v. State, 507 So. 2d 1185, 1186-87 (Fla. 2d DCA 1987). As
noted above, Defendant appealed his judgments and sentences in each of the above-captioned
cases, the appeals were completed, and the mandates issued. Therefore, contrary to Defendant’s
belief, there is a final judgment in each of his cases and his trial counsel was discharged when the
appellate records were transmitted to the Second District. The Court reiterates that Defendant is
no longer represented by trial counsel and is already proceeding pro se at this time.
WARNING
Defendant’s claim that he is still represented by counsel and his request to proceed pro se
is successive and has now been addressed and decided on the merits at least four times. This Court
has an affirmative duty to ensure its finite resources are utilized in a way that both enhances judicial
efficiency and promotes the interest of justice. See Rivera v. State, 728 So. 2d 1165, 1166 (Fla.
1998) (recognizing the Court’s inherent power to bar abusive litigants from continually filing
■frivolous motions or petitions). Addressing successive claims hinders the Court’s ability to address
other defendants’ meritorious claims in an efficient manner. This Order serves to warn the
Defendant that additional successive filings, as to either the particular claims addressed in
this Order, or any other successive claim, may result in an order imposing sanctions that
include barring the Defendant from future access to this Court. See id.; State v. Spencer, 751
So. 2d 47, 48 (Fla. 1999);Attwoodv. Singletary, 661 So. 2d 1216,1217 (Fla. 1995). Additionally,
section 944.279, Florida Statutes, sets forth disciplinary procedures applicable to prisoners who
bring frivolous filings before the Court. The Court, on its own motion, may inquire whether a
frivolous or malicious collateral criminal proceeding has been filed. § 944.279, Fla. Stat. (2016).
Under section 944.28(2)(a), Florida Statutes, such a finding may result in forfeiture of all or part

5

38

• State v. Christopher Rahim, CRC06-23073CFANO, CRC06-26725CFANO
of any accumulated gain time. Tarmehill v. State, 843 So. 2d 355, 356 (Fla. 3d DCA 2003). It may
also result in disciplinary proceedings under sections 944.279 and 944.09, Florida Statutes.
Accordingly, it is
ORDERED AND ADJUDGED that Defendant’s second Amended Motion for Faretta
Hearing is hereby DENIED.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this 2,lp
day of November, 2018. A true and correct copy ofthe foregoing has been furnished to the parties
listed below.

Nancy Moate Ldy, Circuit Judge
cc:

Office of the State Attorney
Christopher Rahim, DC# R02347
Sumter Correctional Institution
9544 County Road 476B
Bushnell, FL 33513-0667

6

39

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
v.
CHRISTOPHER RAHAIM,
Person ID: 1160034, Defendant.

CASE NOS.: CRC06-23073CFANO
CRC06-26725CFANO
UCNS:
522006CF023073XXXXNO
522006CF026725XXXXNO
DIVISION: A

ORDER DENYING DEFENDANT’S MOTION FOR REHEARING
TO UNSEAL AND OBTAIN ACCESS TO CONFIDENTIAL FILES
THIS MATTER is before the Court on Defendant’s pro se Motion for Rehearing to
Unseal and Obtain Access to Confidential Files filed September 3, 2019, and “Amendment for
Motion for Rehearing to Unseal and Obtain Access To Confidential Records” filed September 6,
2019, both of which are directed at this Court’s August 23, 2019, Order Denying Defendant’s
Motion to Unseal and Obtain Access to Confidential Files. Having considered the motion,
amendment, record, and applicable law, the Court finds that it did not overlook or misapprehend
the facts or law as Defendant contends. Accordingly, it is hereby
ORDERED AND ADJUDGED that Defendant’s Motion for Rehearing is DENIED.
DEFENDANT IS NOTIFIED that he has thirty days from the date of this order to appeal,
should he choose to do so.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this____
day of September, 2019. A true and correct copy of this order has been furnished to the parties
listed below.

Original Signed
Nancy Moate Ley, Circuit Juelge
Iffl&NCY MOATE L€Y
CIRCUIT JUDGE

cc:
Office of the State Attorney
Christopher Rahim, DC# R02347
Sumter Correctional Institution
9544 County Road 476B
Bushnell, FL 33513-0667

if
IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
CASE NO.:
UCN:
DIVISION:

v.

CRC06-23073CFANO
522006CF023073XXXXNO
A

CHRISTOPHER RAHIM,
Person ID: 1160034, Defendant.
ORDER DENYING DEFENDANT’S MOTION FOR DISCHARGE
** SECOND WARNING AGAINST FRIVOLOUS FILINGS**
THIS MATTER is before the Court on the Defendant’s pro se Motion for Discharge
filed August 29, 2019, pursuant to Florida Rule of Criminal Procedure 3.191. Having considered
the motion, record, and applicable law, the Court finds as follows:
The Defendant asks the Court to discharge this case based on his claim that he was not
brought to “speedy trial” even after he filed a demand under Rule 3.191. The motion contains a
lengthy recitation of the Defendant’s version of the facts, including his claims that police and
prosecutors set him up and then covered-up the facts that would have exonerated him of the
offense. He further alleges he is actually innocent and has been denied the right to a “true fair
hearing or trial of the merits of the case.” He also claims he has been “denied an acquittal.”
The record reflects that the Defendant had a jury trial in this case. The jury convicted him
of one count of sexual battery on August 6, 2008, and the Court sentenced him to 15 years in
prison on September 8, 2008. His judgment and sentence were affirmed on appeal and the
mandate issued December 22, 2009. See Rahaim v. State, 21 So: 3d 922 (Fla. 2d DC A 2009).
Thereafter, on June 13, 2019, the Court dismissed Defendant’s Demand for Speedy Trial as moot
noting he already received the relief he was requesting because he was tried by a jury over 10
years ago. Then on August 12, 2019, the Court dismissed the Defendant’s Notice of Expiration
of Speedy Trial finding that because he already had his jury trial, the speedy trial rules are no
longer relevant or applicable to his case. His conclusory allegation that he never received a “true
fair hearing or trial of the merits of the case” is insufficient to somehow make his case revert to
its pretrial posture and thereby potentially resurrect his right to a speedy trial. Considering the

State v. Christopher Rahim, CRC06-23073CFANO
procedural posture of this case and for the reasons stated above, the Court finds Defendant is not
entitled to have his case discharged. Therefore, his request for discharge is denied.
Likewise, the Court finds meritless the Defendant’s assertion that the State never brought
him to trial because its “mock trial and evidence are inadmissible.” This claim appears to be
based on the same core allegations he has previously raised on numerous occasions. As the Court
noted in its June 13, 2019 Order Denying Defendant’s Motion to Compel Discovery and Unseal
Files, the crux of his complaint is that he believes several players—including the State
Attorney’s Office, trial judge, Clerk of the Circuit Court, Saint Petersburg Fire Department, Saint
Petersburg Police Department, Florida Department of Law Enforcement, trial witnesses, and the
victims—have conspired to falsely accuse, charge, prosecute, and imprison him. However, the
Defendant’s claimed discovery violations, tampering with evidence, fraud on the court, and so
forth have no relevance to the speedy trial rules. The Court finds that, regardless of what he
names his motions, the Defendant’s claims are woefully untimely attempts to collaterally attack
his conviction and sentence. And yet, despite the procedural posture of his case, the Defendant
continues to file motions raising these frivolous and successive claims.
**SECOND WARNING**
This Court has an affirmative duty to ensure its finite resources are utilized in a way that
both enhances judicial efficiency and promotes the interest of justice. See Rivera v. State, 728
So. 2d 1165, 1166 (Fla. 1998) (recognizing the Court’s inherent power to bar abusive litigants
from continually filing frivolous motions or petitions). Addressing successive claims hinders the
Court’s ability to address other defendants’ meritorious claims in an efficient manner. On
November 26, 2018, this Court warned the Defendant against additional successive filings
regarding his claim that he was still represented by counsel or “any other successive claim ”
raised thereafter. This order serves to warn the Defendant a second time that additional
successive filings, as to either the particular claims raised in the present motion, or any
other successive claims, may result in an order imposing sanctions that include barring the
Defendant from future access to this Court. See id.; State v. Spencer, 751 So. 2d 47, 48 (Fla.
1999); Attwood v. Singletary, 661 So. 2d 1216, 1217 (Fla. 1995).
Additionally, section 944.279, Florida Statutes, sets forth disciplinary procedures
applicable to prisoners who bring frivolous filings before the Court. The Court, on its own
motion, may inquire whether a frivolous or malicious collateral criminal proceeding has been

2

State v. Christopher Rahim, CRC06-23073CFANO
filed. § 944.279, Fla. Stat. (2016). Under section 944.28(2)(a), Florida Statutes, such a finding
may result in forfeiture of all or part of any accumulated gain time. Tarinehill v. State, 843 So. 2d
355, 356 (Fla. 3d DCA 2003). It may also result in disciplinary proceedings under sections
944.279 and 944.09, Florida Statutes.
Accordingly, it is hereby
ORDERED AND ADJUDGED that the Defendant’s Motion for Discharge is DENIED.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida this
_____ day of March 2020. A true and correct copy of this order has been furnished to the
parties listed below.

Original Signed
Nancy Moate Ley, Circuit Judge

MAR 2 7 2020
NANCY MOATE LEY
CIRCUIT JUDGE

cc:

Office of the State Attorney
Christopher Rahim, DC# R02347
Taylor Correctional Institution
8501 Hampton Springs Rd.
Perry, FL 32348-8747

3

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT OF
THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,
v.
CHRISTOPHER RAHIM,
Person ID: 1160034, Defendant.

CASE NO.: CRC06-26725CFANO
UCN:
522006CF026725XXXXNO
DIVISION: A

ORDER DENYING DEFENDANT’S MOTION FOR DISCHAWCF
■** SECOND WARNING AGAINST FRIVOLOUS FILINGS**
THIS MATTER is before the Court on the Defendant’s pro se Motion for Discharge
filed August 21, 2019, pursuant to Florida Rule of Criminal Procedure 3.191. Having considered
the motion, record, and applicable law, the Court finds as follows:
The Defendant seeks to be forever discharged from the crime charged in this case and
contends he is entitled to discharge on the following two bases. First, he alleges he was not
brought to trial before expiration of speedy trial and, pursuant to Rule 3.191, he has previously
filed a Demand for Speedy Trial and Notice of Expiration of Speedy Trial. Second, he alleges he
was never actually brought to trial because his trial was actually a “mock trial” based
on
inadmissible hearsay testimony and evidence that was the product of “willful disregard of court
orders, discovery violations, fraud on the court, undue influence, [and] connivance.”
As to his first claim, the record reflects the Defendant was tried and found guilty by a
jury of sexual battery. On December 18, 2008, the Court adjudicated him guilty and sentenced
him to 15 years in prison.1 The judgment and sentence were"per curiam affirmed on appeal and
the mandate issued October 5, 2010. See Rahaim v. State, 44 So. 3d 590 (Fla. 2d DCA 2010)
(table). On June 13, 2019, this Court dismissed the Defendant’s Demand for~Speedy Triafas
moot noting he already received the relief he was requesting because he was tried by a jury over
10 years ago. Thereafter, on August 12, 2019, the Court dismissed his Notice of Expiration of
Speedy Trial finding that because he already had his jury trial, the speedy trial rules are no longer
relevant or applicable to his case. For these same reasons and considering the procedural posture
This sentence was ordered to run consecutively to his sentence in case number CRC06-23073CFANO.

State v. Christopher Rahim, CRC06-26725CFANO
of this case, the Court now finds the Defendant is not entitled to discharge based on the alleged
speedy trial violation. As such, his first claim is without merit and denied.
The Defendant’s second claim is likewise without merit. His claim here, that he received
a “mock trial,” is based on the same core allegations he has previously raised on numerous
occasions. As the Court noted in its June 13, 2019 Order Denying Defendant’s Motion to
Compel Discovery and Unseal Files, the crux of his complaint is that he believes several
players—including the State Attorney’s Office, trial judge, Clerk of the Circuit Court, Saint
Petersburg Fire Department, Saint Petersburg Police Department, Florida Department of Law
Enforcement, trial witnesses, and the victims—have conspired to falsely accuse, charge,
prosecute, and imprison him. However, the Defendant’s claimed discovery violations, tampering
with evidence, fraud on the court, and so forth have no relevance to the speedy trial rules. The
Court finds that, regardless of what he names his motions, the Defendant’s claims are woefully
untimely attempts to collaterally attack his conviction and sentence. And yet, despite the
procedural posture of his case, the Defendant continues to file motions raising these frivolous
and successive claims.
**SECOND WARNING**
This Court has an affirmative duty to ensure its finite resources are utilized in a way that
both enhances judicial efficiency and promotes the interest of justice. See Rivera v. State, 728
So. 2d 1165, 1166 (Fla. 1998) (recognizing the Court’s inherent power to bar abusive litigants
from continually filing frivolous motions or petitions). Addressing successive claims hinders the
Court s ability to address other defendants’ meritorious claims in an efficient manner. On
November 26, 2018, this Court warned the Defendant against additional successive filings
regarding his claim that he was still represented by counsel or “any other successive claim ”
raised thereafter. This order serves to warn the Defendant a second time that additional
successive filings, as to either the particular claims raised in the present motion, or any
other successive claims, may result in an order imposing sanctions that include barring the
Defendant from future access to this Court. See id.; State v. Spencer, 751 So. 2d 47, 48 (Fla.
1999); Attwood v. Singletary, 661 So. 2d 1216, 1217 (Fla. 1995).
Additionally, section 944.279, Florida Statutes, sets forth disciplinary procedures
applicable to prisoners who -bring fri volous Tilings before the Court. The'Court, on its own
motion, may inquire whether a frivolous or malicious collateral criminal proceeding has been

2 of 3

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
May 22, 2020
CASE NO.: 2D18-5096
L.T. No.: 06-23073-CFANO,
06-26725-CFANO
CHRISTOPHER J. RAHAIM
Appellant / Petitioner(s),

v.

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing/clarification mailed from prison on May 11, 2020,
is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
KEN BURKE, CLERK
lb

MaryElizabeih Kuenzel
Clerk

CHRISTOPHER J. RAHAIM

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

May 22, 2020
CASE NO.: 2D18-5096
L.T. No.: 06-23073-CFANO,
06-26725-CFANO
CHRISTOPHER J. RAHAIM
Appellant / Petitioner(s)

v.

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing/clarification mailed from prison on May 11,2020,
is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
KEN BURKE, CLERK
lb

MaiyEfeabeth Kuenzei
Clerk

CHRISTOPHER J. RAHAIM

(\'ppe/sAi* a
Filing # 112032060 E-Filed 08/19/2020 10:02:55 AM
03
<D

a
a

<

i+-i

Supreme Court of jflorttm

O
■e
o
U
o

WEDNESDAY, AUGUST 19, 2020

* Vh

ts

CASE NO.: SC20-1218
Lower Tribunal No(s).:
2D20-1986; 522006CF023073XXXXNO

Q
’O

c
o
o
<L>

m
6a

CHRISTOPHER J. RAHIM

o

Petitioner(s)

o
CN
o

(N
Os
OO

o

Q
W
Ph

vs.

STATE OF FLORIDA
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, No. SC 19-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla. 1987); Dodi Publ’gCo. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

m,
John A. Tomasino
Clerk. Supretiie Court
td
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

.*

—**-

Filing # 109494545 E-Filed 06/26/2020 06:20:25 PM

i

"3

xl

f7

<L>

a
p.

o

Supreme Court of Jflortba

t!
o
U

FRIDAY, JUNE 26, 2020

<

4h

£

GO

Q
T3

c
o

CASE NO.: SC20-918
Lower Tribunal No(s).:
2D18-5096; 522006CF023073XXXXNO; 522006CF026725XXXXNO

o
<D

C/3

£«3
VO

o

oo

o

<N
O
<N
Os
(N
VO

o

Q

W

h-1

pc*

CHRISTOPHER J. RAHIM

~ vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, No. SC 19-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla. 1987); Dodi Publ’g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

^22
John A. Tomasino
Clerk, Supreme Court
td
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. MARY BETH KUENZEL, CLERK
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK

Filing # 110393656 E-Filed 07/17/2020 10:52:56 AM

<L>

a
a

Supreme Court of jflorttm

<

4-i

O
t5
3
o
U
o

FRIDAY, JULY 17, 2020
CASE NO.: SC20-918
Lower Tribunal No(s).:
2D18-5096;
522006CF023073XXXXNO;
522006CF026725XXXXNO

-fa

.22

Q
"O

c
o
o

4)
C/3

sc3
vo

CHRISTOPHER J. RAHIM

vs.

STATE OF FLORIDA

in

o
o

Petitioner(s)

Respondent(s)

(N
O

Cl

Pursuant to this Court's order dated June 26, 2020, the Motion for Rehearing,
treated as a Motion for Reinstatement is hereby stricken as unauthorized.

r-~
o

Q
w
-1

A True Copy
Test:

U-,

<22
John A. Tomasino
Clerk. Supreme Court

ks
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. MARY BETH KUENZEL, CLERK
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK

Supreme Court of jflortba
TUESDAY, SEPTEMBER 29, 2020
CASE NO.: SC20-1409
Lower Tribunal No(s).:
2D 19-3947; 522006CF023073XXXXNO; 522006CF026725XXXXNO
CHRISTOPHER J. RAHAIM

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, No. SCI9-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla. 1987); Dodi Publ’g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

<22
John A, T omasino
Clerk. Supreme Court
td
Served:

C. SUZANNE BECHARD
CHRISTOPHER J. RAHAIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

mk

'x A
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

July 15, 2020
CASE NO.: 2D19-3947
L.T. No.: CRC06-23073-CFANO,
CRC06-26725-CFANO
CHRISTOPHER J. RAHAIM

v.

Appellant / Petitioner(s),

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
The appellant's motion for rehearing is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
CHRISTOPHER J. RAHAIM
ag
t

,v
Mary Elizabeth Kuenzel
Clerk

PAMELA CORDOVA PAPASOV, A.A.G
KEN BURKE, CLERK

